           U.S. Department of
                                                     Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Quality Control Review of                    Date:     December 1, 2003
           TSA Balance Sheet as of February 28, 2003
           QC-2004-005
                                                                   Reply to
  From:    Alexis M. Stefani                                        Attn of:   Alves:x61496
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Acting Assistant Secretary for Budget and
            Programs/Chief Financial Officer


           The attached audit report on the Transportation Security Administration (TSA)
           Consolidated Balance Sheet as of February 28, 2003, was issued by KPMG LLP
           (KPMG) of Washington, D.C. The audit was performed to provide assurance that
           the beginning balances of TSA assets and liabilities that transferred from the
           Department of Transportation (DOT) to the Department of Homeland Security
           (DHS) on March 1, 2003, are reliable. We performed a quality control review of
           the audit work to determine compliance with auditing standards generally accepted
           in the United States.

           The KPMG Independent Auditors’ Report rendered an unqualified opinion on the
           TSA balance sheet as of February 28, 2003, when TSA transferred from DOT to
           DHS. In our opinion, the audit work performed by KPMG on the TSA balance
           sheet complied with auditing standards generally accepted in the United States of
           America.

           We appreciate the cooperation and assistance of TSA and KPMG representatives.
           If we can answer any questions, please call me at (202) 366-1992, or Ted Alves at
           (202) 366-1496.

           Attachment

                                                       #

           cc:        Inspector General, Department of Homeland Security
                      Chief Financial Officer, Transportation Security Administration
